APPENDIX

Case: 18-50243, 07/13/2020, ID: 11750040, DktEntry: 64-1, Page 1 of 5

FILED

NOT FOR PUBLICATION

JUL 13 2020

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

U.S. COURT OF APPEALS

18-50243

D.C. No.
2:17-cr-00660-DSF-1

v.
TARCISIO VALENCIA-BARRAGAN,

MEMORANDUM*

Defendant-Appellant.
Appeal from the United States District Court
for the Central District of California
Dale S. Fischer, District Judge, Presiding
Argued and Submitted June 4, 2020
Pasadena, California
Before: CALLAHAN and NGUYEN, Circuit Judges, and KANE,** District Judge.
Tarcisio Valencia-Barragan appeals his conviction for being a felon in
possession of a firearm in violation of 18 U.S.C. § 922(g)(9) on the bases that the
district court erroneously denied his motion to suppress evidence and statements

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The Honorable Yvette Kane, United States District Judge for the
Middle District of Pennsylvania, sitting by designation.

A1

Case: 18-50243, 07/13/2020, ID: 11750040, DktEntry: 64-1, Page 2 of 5

and that his conviction violates Rehaif v. United States, 139 S. Ct. 2191 (2019).1
We have jurisdiction pursuant to 28 U.S.C. § 1291. We review a district court’s
denial of a suppression motion de novo while reviewing the district court’s factual
findings for clear error. See, e.g., United States v. Schram, 901 F.3d 1042, 1044
(9th Cir. 2018) (citing United States v. Cunag, 386 F.3d 888, 893 (9th Cir. 2004)).
We address Valencia’s contentions in turn, and we affirm Valencia’s conviction.
1.

Valencia first challenges the district court’s denial of his motion to

suppress the firearm recovered from his vehicle upon his arrest. Specifically,
Valencia argues that the district court erred in holding that, regardless of the
constitutionality of his seizure by police, Valencia’s subsequent flight from law
enforcement constituted an intervening act that purged the taint from any prior
illegality under United States v. Garcia, 516 F.2d 318 (9th Cir. 1975). We need
not address Valencia’s arguments regarding the constitutionality of the vehicle stop
because the district court correctly denied his motion to suppress on the ground
that his flight from the officers attenuated any prior illegality.
The district court was correct in finding that Garcia and related authority
were applicable to the facts of this case, where the video footage makes clear that
the officers were attempting to physically restrain Valencia using handcuffs at the

1

Valencia pled guilty to the Section 922(g)(9) charge but reserved his right to
appeal the district court’s denial of his suppression motion.
2

18-50243

A2

Case: 18-50243, 07/13/2020, ID: 11750040, DktEntry: 64-1, Page 3 of 5

time he fled. See Garcia, 516 F.2d at 319; see also United States v. McClendon,
713 F.3d 1211, 1218 (9th Cir. 2013). Moreover, as the district court aptly noted,
Valencia fled under circumstances that posed a danger to the surrounding
community that justified his eventual arrest. Therefore, the district court did not
err in denying Valencia’s motion to suppress the firearm.
2.

Valencia also challenges the district court’s denial of his motion to

suppress statements made to law enforcement after his arrest on the basis that the
statements were made in violation of Miranda v. Arizona, 384 U.S. 436 (1966).
We review the adequacy of Miranda warnings de novo. See United States v. San
Juan-Cruz, 314 F.3d 384, 387 (9th Cir. 2002). “In order to be valid,
a Miranda warning must convey clearly to the arrested party that he or she
possesses the right to have an attorney present prior to and during questioning.”
Id. at 388 (citing United States v. Connell, 869 F.2d 1349, 1353 (9th Cir. 1989)).
“The warning also must make clear that if the arrested party would like to retain an
attorney but cannot afford one, the Government is obligated to appoint an attorney
for free.” Id. (citing Connell, 869 F.2d at 1353). “The translation of a
suspect’s Miranda rights need not be a perfect one, so long as the defendant
understands that he does not need to speak to the police and that any statement he
makes may be used against him.” United States v. Perez-Lopez, 348 F.3d 839, 848
(9th Cir. 2003) (quoting United States v. Hernandez, 913 F.2d 1506, 1510 (10th

3

18-50243

A3

Case: 18-50243, 07/13/2020, ID: 11750040, DktEntry: 64-1, Page 4 of 5

Cir. 1990)). Valencia appears to take issue only with the fact that the agent who
questioned him omitted the word “and” when relating to Valencia that he had the
right to counsel “before, during the questions.”2 We conclude that this omission is
immaterial because, when viewed in its entirety, the warning was not misleading or
confusing. See id.; see also United States v. Loucious, 847 F.3d 1146, 1151 (9th
Cir. 2017). Accordingly, we affirm the district court’s denial of Valencia’s motion
to suppress statements.
3.

Finally, Valencia challenges the validity of his conviction on the basis

that under Rehaif, the Government was required to prove both that he possessed
the firearm and ammunition in question and that he knew he was prohibited from
doing so based on his status of having previously been convicted of a misdemeanor
crime of domestic violence. We review this question for plain error. See United
States v. Benamor, 937 F.3d 1182, 1188 (9th Cir. 2019). Accordingly, Valencia
must establish an “(1) error, (2) that is plain, (3) that affect[s] substantial rights,”
and “(4) the error seriously affect[s] the fairness, integrity, or public reputation of
judicial proceedings.” See United States v. Gadson, 763 F.3d 1189, 1203 (9th Cir.
2014) (alterations in original) (quoting United States v. Cotton, 535 U.S. 625, 631
(2002)).

2

Valencia also argues that the agent failed to adequately advise him that if he
could not afford an attorney, the Government would appoint him one free of
charge. We find no merit in this argument.
4

18-50243

A4

Case: 18-50243, 07/13/2020, ID: 11750040, DktEntry: 64-1, Page 5 of 5

Valencia fails to meet this standard for two reasons. First, the record does
not establish a reasonable probability that he would have persisted in a not guilty
plea were it not for the alleged error. Second, Valencia cannot establish plain error
in light of the fact that he was convicted of the relevant misdemeanor domestic
violence offense in 2013, approximately five (5) years before possessing the
firearm at issue in this case, and he completed a treatment program for domestic
violence offenders following his conviction. See Benamor, 937 F.3d at 1189.
Valencia’s conviction is AFFIRMED.3

3

We grant the Government’s motion to take judicial notice of certain convictionrelated documents for purposes of Valencia’s Rehaif-based claim.
5

18-50243

A5

Case 2:17-cr-00660-DSF Document 48 Filed 02/27/18 Page 1 of 6 Page ID #:260

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
MEMORANDUM

Case No.
Title

Date

CR 17-660 DSF

2/27/18

United States of America v. Tarcisio Valencia-Barragan

Present:
The Honorable

DALE S. FISCHER, United States District Judge
Debra Plato

Not Present

Deputy Clerk

Court Reporter

Attorneys Present for Plaintiffs

Attorneys Present for Defendants

Not Present

Not Present

Proceedings:

(In Chambers) Order DENYING Motions to Suppress Evidence and
Statements (Dkts. 26, 27)
I.

INTRODUCTION

Tarcisio Valencia Barragan is charged with violating 18 U.S.C. § 922(g)(9). He
moves to suppress evidence seized during a search of his vehicle and statements made to
an FBI agent. The Motions are DENIED.
II.

FACTS

A. Initial Traffic Stop
On August 28, 2017, California Highway Patrol Officer Julie Jensen observed a
white Acura TL with tinted front windows, purportedly in violation of California Vehicle
Code § 26708(a). Dkt. 26 Ex. A (Police Report) at 4.1
1

Local Criminal Rule 12-1.1 requires that a “motion to suppress shall be supported by a
declaration on behalf of the defendant, setting forth all facts then known upon which it is
contended the motion should be granted.” Defense counsel initially submitted a declaration
stating: “The statement of facts contained in this motion is based entirely on the discovery
MEMORANDUM

Page 1 of 6

A6

Case 2:17-cr-00660-DSF Document 48 Filed 02/27/18 Page 2 of 6 Page ID #:261

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
MEMORANDUM
While running the vehicle information through CHP dispatch, Officer Jensen
observed Defendant place a call and say something that sounded like “Primo” and
“Policia.” Id. at 5. Concerned that Defendant might be warning someone of the stop, or
providing the location of the stop to a third party, Officer Jensen took possession of the
phone. Id.
Officer Jensen asked Defendant if the address on his driver’s license was current,
and he stated it was not. Id. Defendant said he had moved 15 days earlier, and gave
Officer Jensen his current address. Id. While writing a ticket for the tinted windows,
Officer Jensen asked Defendant if the owner of the Acura knew he had the vehicle, but
Defendant said he knew “little English.” Id.
CHP Officer Cliff Powers arrived and assisted with translation. Defendant
explained he was going to visit his cousin, and borrowed the car from a friend he lives
with. Id. However, the registered owner’s address did not match the address on
Defendant’s driver’s license, or the new address he gave Officer Jensen. Id.
Officer Jensen asked Defendant if he had any drugs or money in the car; Defendant
said no. Id. at 6. After Defendant denied consent to search the car, Officer Jensen
retrieved Edy, her police service dog, to sniff the exterior of the car. Id. Edy became
excited, which Officer Jensen believed indicated the presence of narcotics. Id. Officer
Jensen then opened the right front door, and directed Edy to sniff the interior of the
vehicle. Id. Edy again became excited. Id. at 6-7. Based on Edy’s behavior, Officer
Jensen searched the vehicle. Id. at 7. Under the right front seat, Officer Jensen found a
plastic bag which was found to contain more than $28,000. Id. at 9.
B. Discovery of the Firearm and Ammunition
Officer Jensen asked Officer Powers to handcuff Defendant. Defendant said, “For
what?” and then fled. Id. Defendant ran across two lanes of traffic, scaled a fence, and

provided by the government, including the California Highway Patrol investigative report of Mr.
Valencia’s August 28, 2017 arrest, attached hereto as Exhibit A.” The Court therefore relies on
the facts stated in that Report, most of which are also clear from the video recordings of the stop,
which the Court has viewed.
MEMORANDUM

Page 2 of 6

A7

Case 2:17-cr-00660-DSF Document 48 Filed 02/27/18 Page 3 of 6 Page ID #:262

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
MEMORANDUM
headed into a nearby industrial area, where he was later found and taken into custody. Id.
at 7-8.
After Defendant fled the scene, abandoning the car, CHP Officer Charles Mairs
drove the car to the CHP office. Id. at 8. A firearm and loaded magazine were located in
the interior sunroof area of the vehicle above the driver’s seat. Id.
C. Custodial Interrogation
Following Defendant’s arrest, he was transported to the Santa Maria station and
interviewed in Spanish by FBI Special Agent Daniel J. Diaz. Defendant and SA Diaz
had the following exchange:
SA Diaz:

But before I ask these questions . . . because you are
detained-arrested, I have to tell you your rights. So
. . . You have the right to remain silent. You have the
right that . . . hmm . . . you have the right to
[unintelligible] . . . anything you say can be used against
you in the courts of law. You [voices overlap] . . .

Defendant:

So, are you going to arrest me?

SA Diaz:

For the time being, yes.

Defendant:

What are the charges at the moment?

SA Diaz:

Let me finish and then I . . . You have the right . . . You
have the right to have an attorney present before, during
the questions . . .

Defendant:

Okay.

SA Diaz:

If you so wish. If you do not have the funds to pay for a
lawyer, you have the right to have the Court appoint one
before beginning with the questioning. Do you
understand your rights, as they are- the ones that I told
you?

MEMORANDUM

Page 3 of 6

A8

Case 2:17-cr-00660-DSF Document 48 Filed 02/27/18 Page 4 of 6 Page ID #:263

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
MEMORANDUM
Defendant:

Yes.2

Dkt. 27 Ex. B (Audio Recording of Interview).
III.

DISCUSSION

Defendant moves to suppress evidence seized from the Acura and statements made
to SA Diaz.
A. Standing
“In order to contest the legality of a search or seizure, the defendant must establish
that he or she had a ‘legitimate expectation of privacy’ in the place searched or in the
property seized.” United States v. Kovac, 795 F.2d 1509, 1510 (9th Cir. 1986) (quoting
Rakas v. Illinois, 439 U.S. 128, 143-44 (1978)). “The defendant has the burden of
establishing that, under the totality of the circumstances, the search or seizure violated his
legitimate expectation of privacy in a particular place.” Id.
For a vehicle search, a defendant who has “neither a property nor a possessory
interest in the automobile, nor an interest in the property seized” lacks Fourth
Amendment standing. Rakas, 439 U.S. at 148. On the other hand, “a defendant may
have a legitimate expectation of privacy in another’s car if the defendant is in possession
of the car, has the permission of the owner, holds a key to the car, and has the right and
ability to exclude others, except the owner, from the car.” United States v. Thomas, 447
F.3d 1191, 1198 (9th Cir. 2006).
It is undisputed that Defendant was the driver and sole occupant of the car, and had
the keys. Defendant submits a declaration with his Reply Brief,3 which states that
Defendant had permission to drive the Acura from the registered owner. See Dkt. 42 Ex.
A (Valencia Decl.) ¶ 2. That is sufficient evidence to demonstrate standing under
2

Defendant’s translation indicates Defendant’s response is “Inaudible.” Dkt. 27 Ex. C at 2. The
Court has listened to the audio recording and agrees with the Government’s translation;
Defendant clearly and audibly answered, “Sí.” See Dkt. 27 Ex. B; Dkt. 39, Diaz Declaration
¶ 5.
3
Defendant should have set forth the facts establishing standing in his initial moving papers, and
is mistaken to suggest otherwise.
MEMORANDUM

Page 4 of 6

A9

Case 2:17-cr-00660-DSF Document 48 Filed 02/27/18 Page 5 of 6 Page ID #:264

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
MEMORANDUM
Thomas. Even if Defendant did not have standing to challenge the search of the Acura
directly, he has standing to challenge the legality of the initial traffic stop, and to suppress
any fruits of that stop if the initial stop was unlawful. See United States v. Twilley, 222
F.3d 1092, 1095 (9th Cir. 2000).
B. Suppression of Evidence
Because Defendant has standing, the Court must next determine “whether the stop
was unconstitutional,” and, “if it was, [to] consider whether the subsequent search was
tainted by the illegality of the stop.” Twilley, 222 F.3d at 1095-96.
The Government argues that, even assuming the illegality of the traffic stop,
Defendant’s subsequent flight was an intervening event that purged the taint of the
unlawful search. See Garcia v. United States, 516 F.2d 318 (9th Cir. 1975).4
In Garcia, the Defendant failed to stop at a border checkpoint, then sped off when
border agents pursued. Id. at 319. The agents eventually stopped him, searched the
vehicle, and found drugs. Id. The Ninth Circuit assumed the initial stop was illegal, but
held the search was permissible because the officers did not exploit the illegality, unlike a
situation in which law enforcement activity might be designed to “lure” suspected
criminals into flight from law enforcement officers. Id. The Ninth Circuit distinguished
the two situations, noting that “where the illegal conduct of the police is only a necessary
condition leading up to the suspect’s act, no taint attached to his conduct; a ‘but-for’
connection alone is insufficient.” Id. (citations omitted).
The Court concludes Garcia controls. As in Garcia, there is no evidence that the
CHP’s activity was designed to lure Defendant into flight from law enforcement.5
Defendant’s independent and voluntary action of fleeing from the traffic stop is sufficient
to purge any taint arising from an allegedly illegal stop. See id. at 320 (“In this case, the
illegal stop was no more than part of a series of facts leading up to the subsequent
4

For the purpose of this motion only, the Court assumes the stop was illegal.
Defendant argues in his Reply that his flight from law enforcement was the “intended result”
of the illegal stop. The Court does not agree. Defendant has not pointed to any evidence that
Officer Jensen encouraged Defendant to flee the scene, see Garcia, 516 F.2d at 320 (“By
ordering [defendant] to stop, the officer could hardly have intended him to flee.”), and the video
shows none.
5

MEMORANDUM

Page 5 of 6

A 10

Case 2:17-cr-00660-DSF Document 48 Filed 02/27/18 Page 6 of 6 Page ID #:265

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
MEMORANDUM
flight.”); see also United States v. McClendon, 713 F.3d 1211, 1218 (9th Cir. 2013)
(defendant’s act of walking away from the police was an “intervening event that purged
any taint from the prior [illegal] search”).
Defendant’s flight from the scene across several lanes of traffic posed an extreme
danger to himself and drivers/passengers on the road. It also left his car unattended. His
conduct was an intervening event not intended by the officers – who obviously wanted to
take him into custody. The Court also concludes the evidence was not the “fruit of an
illegal search.” Defendant’s Motion to Suppress Evidence is DENIED.
C. Adequacy of Miranda Warnings
Defendant argues he did not knowingly and intelligently waive his Miranda rights
because SA Diaz did not properly inform him of his right to an attorney before
questioning. In order to be valid, a Miranda warning must “convey clearly to the arrested
party that he or she possesses the right to have an attorney present prior to and during
questioning,” and “must make clear that if the arrested party would like to retain an
attorney but cannot afford one, the Government is obligated to appoint an attorney for
free.” United States v. San Juan-Cruz, 314 F.3d 384, 388 (9th Cir. 2002).
SA Diaz informed Defendant he had a “right to attorney present before, during the
questions,” and that if Defendant “did not have the funds to pay for a lawyer,” he had
“the right to have the Court appoint one before beginning with the questioning.” Dkt. 27
Ex. C. SA Diaz’s warnings adequately advised Defendant of his right to an attorney, and
closely tracked Miranda’s operative language. Unlike the defendant in United States v.
Perez-Lopez, 348 F.3d 839 (9th Cir. 2003), Defendant here was not led to believe he had
to “solicit” the court for an attorney. See id. at 847-49. Nor was he otherwise misled.
The warnings provided to Defendant satisfied the requirements of Miranda.
Defendant’s Motion to Suppress Statements is DENIED.
IV.

CONCLUSION

Defendant’s Motions to Suppress Evidence and Statements are DENIED.

IT IS SO ORDERED.
MEMORANDUM

Page 6 of 6

A 11

Case 2:17-cr-00660-DSF Document 14 Filed 10/17/17 Page 1 of 4 Page ID #:74

A 12

Case 2:17-cr-00660-DSF Document 14 Filed 10/17/17 Page 2 of 4 Page ID #:75

A 13

Case 2:17-cr-00660-DSF Document 14 Filed 10/17/17 Page 3 of 4 Page ID #:76

A 14

Case 2:17-cr-00660-DSF Document 14 Filed 10/17/17 Page 4 of 4 Page ID #:77

A 15

Case 2:17-cr-00660-DSF Document 50 Filed 03/20/18 Page 1 of 14 Page ID #:280

1
2
3
4
5
6
7

NICOLA T. HANNA
United States Attorney
LAWRENCE S. MIDDLETON
Assistant United States Attorney
Chief, Criminal Division
MIGUEL ESPINOZA (Cal. Bar No. 255233)
Assistant United States Attorney
General Crimes Section
1200 United States Courthouse
312 North Spring Street
Los Angeles, California 90012
Telephone: (213) 894-7408
Facsimile: (213) 894-0141
E-mail:
miguel.espinoza@usdoj.gov

8

9

Attorneys for Plaintiff
UNITED STATES OF AMERICA

10

UNITED STATES DISTRICT COURT

11

FOR THE CENTRAL DISTRICT OF CALIFORNIA

12

UNITED STATES OF AMERICA,

13

15

AMENDED PLEA AGREEMENT FOR
DEFENDANT TARCISIO VALENCIABARRAGAN

Plaintiff,

14

No. CR 17-660-DSF

V.

TARCISIO VALENCIA-BARRAGAN,

16

Defendant.

17
18

1.

This constitutes the conditional plea agreement between

19

TARCISIO VALENCIA-BARRAGAN ( "def endant 11 ) and the United States

20

Attorney 1 s Office for the Central District of California (the "USA0 11 )

21

in the above-captioned case pursuant to Federal Rule of Criminal

22

Procedure ll(a) (2).

23

bind any other federal, state, local, or foreign prosecuting,

24

enforcement, administrative, or regulatory authorities.
DEFENDANT 1 S OBLIGATIONS

25
26
27
8

This agreement is limited to the USAO and cannot

2.

Defendant agrees to:
a.

At the earliest opportunity requested by the USAO and

provided by the Court, appear and plead guilty to Count One of the

A 16

Case 2:17-cr-00660-DSF Document 50 Filed 03/20/18 Page 2 of 14 Page ID #:281

(

(

1

Indictment in United States v. Tarcisio Valencia-Barragan, CR No. 17-

2

660-DSF, which charges defendant with 18 U.S.C.

3

Prohibited Possession of a Firearm and Ammunition.

§

922(g) (9):

4

b.

Not contest facts agreed to in this agreement.

5

c.

Abide by all agreements regarding sentencing contain'ed

6

in this agreement.
d.

7

Appear for all court appearances, surrender as ordered

8

for service of sentence, obey all conditions of any bond, and obey

9

any other ongoing court order in this matter.

10

e.

Not commit any crime; however, offenses that would be

11

excluded for sentencing purposes under United States Sentencing

12

Guidelines ("U.S.S.G." or "Sentencing Guidelines")

13

within the scope of this agreement.
f.

14
15

§

4Al.2(c) are not

Be truthful at all times with Pretrial Services, the

United States Probation Office, and the Court.

16

g.

Pay the applicable special assessment at or before the

17

time of sentencing unless defendant lacks the ability to pay and

18

prior to sentencing submits a completed financial statement on a form

19

to be provided by the USAO.

20

3.·

To agree to forfeit to the United States of America,

pursuant to 18 U.S.C.

22

and ammunition involved in or used in the knowing commission of the

23

crime charged in Count One of the Indictment.

24

4.

§

924(d}, and 28

u.s.c.

21

§

246l(c), any firearms

Defendant and the USAO agree that defendant's entry of a

25

guilty plea pursuant to paragraph 2(a) above will be conditional, in

26

that defendant reserves the right, on appeal from the judgment, to

27

seek review of the Order Denying Motions to Suppress Statements and

28

Evidence (Dkts. 26 and 27) entered by the Honorable Judge Dale S.
2

A 17

Case 2:17-cr-00660-DSF Document 50 Filed 03/20/18 Page 3 of 14 Page ID #:282

(

(

1

Fischer on February 27, 2018.

2

defendant will be allowed to withdraw defendant's guilty plea.
THE USA0 1S OBLIGATIONS

3
4

If defendant prevails on appeal,

s.

The USAO agrees to:

s

a.

Not contest facts agreed to in this agreement.

6

b.

Abide by all agreements regarding sentencing contained

7

in this agreement.

c.

8

9

At the time of sentencing 1 provided that defendant

demonstrates an acceptance of responsibility for the offense up to

10

and including the time of sentencing, recommend a two-level reduction

11

in the applicable Sentencing Guidelines offense level 1 pursuant to

12

u.s.s.G.

13

additional one-level reduction if available under that section.

§

3El.lr and recommend and, if necessary, move for an

14
15

NATURE OF THE OFFENSE
6.

Defendant understands that for defendant to be guilty of

16

the crime charged in Count One, that is, Prohibited Possession of a

17

Firearm and Ammunition in violation of 18 U.S.C. § 922(g} (9), the

18

following must be true:

19

knowingly possessed a firearm or ammunition;

20

ammunition had been shipped or transported from one state to another

21

or between a foreign nation and the United States; and (3) at the

22

time defendant possessed the firearm or ammunition 1 he had been

23

convicted in any court of a misdemeanor crime

(1) On or about August 281 2017, defendant
(2) the firearm or

(

24
25

of

domestic violence.

PENALTIES

7.

Defendant understands that the statutory maximum sentence

26

that the Court can impose for a violation of 18 U.S.C. § 922(g} (9) 1

27

is: ten years 1 imprisonment; a three-year period of supervised

28

release; a fine of $250,000 or twice the gross gain or gross loss
3

A 18

Case 2:17-cr-00660-DSF Document 50 Filed 03/20/18 Page 4 of 14 Page ID #:283

(

(

1

resulting from the offense, whichever is greatest; and a mandatory

2

special assessment of $100.

3

8.

Defendant understands that supervised release is a period

4

of time following imprisonment during which defendant will be subject

5

to various restrictions and requirements.

6

if defendant violates one or more of the conditions of any supervised

7

release imposed, defendant may be returned to prison for all or part

8

of the term of supervised release authorized by statute for the

9

offense that resulted in the term of supervised release, which could

Defendant understands that

10

result in defendant serving a total term of imprisonment greater than

11

the statutory maximum stated above.

12

9.

Defendant understands that, by pleading guilty, defendant

13

may be giving up valuable government benefits and valuable civic

14

rights, such as the right to vote, the right to possess. a firearm,

15

the right to hold office, and the right to serve on a jury.

16

Defendant understands that once the court accepts defendant 1 s guilty

17

plear it will be a federal felony for defendant to possess a firearm

18

or ammunition.

19

case may also subject defendant to various other collateral

20

consequences, including but not limited to revocation of probation,

21

parole, or supervised release in another case and suspension or

22

revocation of a professional license.

23

unanticipated collateral consequences will not serve as grounds to

24

withdraw defendant's guilty plea.

25

10.

Defendant understands that the conviction in this

Defendant understands that

Defendant understands that, if defendant is not a United

26

States citizen, the felony conviction in this case may subject

27

defendant to: removal, also known as deportation, which may, under

28

some circumstances, be mandatory; denial of citizenship; and denial
4

A 19

Case 2:17-cr-00660-DSF Document 50 Filed 03/20/18 Page 5 of 14 Page ID #:284

(

(

1

of admission to the United States in the future.

2

and defendant's attorney also may not be able to, advise defendant

3

fully regarding the immigration consequences of the felony conviction

4

in this case.

5

consequences will not serve as grounds to withdraw defendant's guilty

6

plea.

Defendant understands that unexpected immigration

7
8

9

The court cannot,

FACTUAL BASIS
11.

Defendant admits that defendant is, in fact, guilty of the

offense to which defendant is agreeing to plead guilty.

·Defendant

10

and the USAO agree to the statement of facts provided below and agree

11

that this statement of facts is sufficient to s~pport a plea of.

12

guilty to the charge described in this agreement and to establish the

13

Sentencing Guidelines factors set forth in paragraph 13 below but is

14

not meant to be a complete recitation of all facts relevant to the

15

underlying criminal conduct or all facts known to either party that

,16

17

relate to that conduct.
On August 28, 2017, defendant knowingly and unlawfully possessed

18

a firearm, namely, a Star, Bonifacio Echeverria .45 caliber semi-

19

automatic pistol, bearing serial number 1473189, and ammunition,

20

namely, three rounds of Winchester .45 caliber ammunition, one round

21

of Hornady .45 caliber ammunition, one round of Remington .45 caliber.

22

ammunition, and one round of Barnes .45 caliber ammunition.

23

firearm and the ammunition that defendant knowingly and unlawfully

24

possessed on that date were manufactured outside of the State of

25

California, and thus had, prior to August 28, 2017, traveled in and

26

affected interstate commerce.

27
28

Both the

Prior to defendant's knowing and unlawful possession of the
firearm and ammunition on August 28, 2017, defendant had been
5

A 20

Case 2:17-cr-00660-DSF Document 50 Filed 03/20/18 Page 6 of 14 Page ID #:285

C

(

1

convicted of a misdemeanor crime of domestic violence, namely,

2

Battery on a Spouse, in violation of California Penal Code Section

3

243(e) (1), in the Superior Court of the State of California, County

4

of Sacramento, in Case Number 13M02829, on or about October 21, 2013.

5

SENTENCING FACTORS

6

12.

Defendant understands that in determining defendant's

7

sentence the Court is required to calculate the applicable Sentencing

8

Guidelines range and to consider that range, possible departures

9

under the Sentencing Guidelines, and the other sentencing factors set

10

forth in 18 U.S.C. § 3553(a).

11

Sentencing Guidelines are advisory.only, that defendant cannot have

12

any expectation of receiving a sentence within the calculated

13

Sentencing Guidelines range, and that after considering the

14

Sentencing Guidelines and the other§ 3553(a) factors, the Court will

15

be free to exercise its discretion to impose any sentence it finds

16

appropriate up to the maximum set by statute for the crime of

17

conviction.

18
19
20
21

13.

Defendant understands that the

Defendant and the USAO agree to the following applicable

Sentencing Guidelines factors:
Base Offense Level:
14,

12

[U. S . S . G . § 2 K2 . 1 (a) ( 7 ) ]

Defendant and the USAO reserve the right to argue that

22

additional specific offense characteristics, adjustments, and

23

departures under -the Sentencing Guidelines are appropriate.

24.

offense level set forth above is based on information currently known

25

to the government regarding defendant's criminal history.

26

understands and agrees that defendant's base offense level could be

27

increased if defendant is a career offender under U.S.S.G. §§ 4Bl.1

28

and 4Bl.2 or an armed career criminal under U.S.S.G. §§ 4Bl.4 and 18

The base

Defendant

6

A 21

Case 2:17-cr-00660-DSF Document 50 Filed 03/20/18 Page 7 of 14 Page ID #:286

(

(

1

U.S.C. § 924(e), or if defendant has additional prior conviction(s)

2

for either a crime of violence or a controlled substance offense

3

under U.S.S.G. § 2K2.1.

4

altered, defendant and the USAO will not be bound by the base offense

5

level agreed to above.

6

agreement as. to defendant's criminal history or criminal history

7

category.

8
9

15.

If defendant's base offense level is so

Defendant understands that there is no

Defendant and the USAO reserve the right to argue for a

sentence outside the sentencing range established by the Sentencing

10

Guidelines based on the factors set forth in 18 U.S.C. § 3553(a) (1),

11

(a) (2),

(a) (3),

(a) (6), and (a) (7).

12
13
14

WAIVER OF CONSTITUTIONAL RIGHTS
16.

Defendant understands that by pleading guilty, defendant

gives up the following rights:

15

a.

The right to persist in a plea of not g~ilty.

16

b.

The right to a speedy and public trial by jury.

17

c.

The right to be represented by counsel - and if

18

necessary have the court appoint counsel -- at trial.

19

understands, however, that, defendant retains the right to be

20

represented by counsel -- and if necessary have the court appoint_

21

counsel -- at every other stage of the proceeding.

22

d.

Defendant

The right to be presumed innocent and to have the

23

burden of proof placed on the government to prove defendant guilty

24

beyond a reasonable doubt.

25
26

e.

The right to confront and cross-examine witnesses

against defendant.

27

28
7

A 22

Case 2:17-cr-00660-DSF Document 50 Filed 03/20/18 Page 8 of 14 Page ID #:287

f.

l

The right to testify and to present evidence in

2

oppo~ition to the charges, including the right to compel the

3

attendance of witnesses to testify.
g.

4

The right not to be compelled to testify, and, if

5

defendant chose not to testify or present evidence, to have that

6

choice not be used against defendant.

h.

7

Any and all rights to pursue any affirmative defenses,

8

Fourth Amendment or Fifth Amendment claims, and other pretrial

9

motions that have been filed or could be filed.

10
11

WAIVElR OF APPEAL OF CONVICTION
17,

Defendant understands that, with the exception of an appeal

12

based on a claim that defendant's guilty plea was involuntary, or an

13

appeal on the grounds specifically.reserved in paragraph~';};;('('~

14

pleading guilty defendant is waiving and giving up any right to

15

appeal defendant's conviction on the offense to which defendant is

16

pleading guilty.

·

LIMITED MUTUAL WAIVER OF APPEAL OF SENTENCE

17
18

~/1~/lt;

18.

Defendant agrees that, provided the Court imposes a term of

19

'imprisonment within or below the range corresponding to an offense

20

level of 10 and the criminal history category calculated by the

21

Court, defendant gives up the right to appeal all of the following:

22

(a) the procedures and calculations .used to determine and impose any

23

portion of the sentence, with the exception of the Court's

24

calculation of defendant 1 s criminal history category; (b) the term of

25

imprisonment imposed by the Court, except to the extent it depends on

26

the Court's calculation of defendant's criminal history category; (c)

27

the fine imposed by the Court, provided it is withir,t the statutory

28
8

A 23

Case 2:17-cr-00660-DSF Document 50 Filed 03/20/18 Page 9 of 14 Page ID #:288

(

(

1

maximum; and (d) the term of probation or supervised release imposed

2

by the Court, provided it is within the statutory maximum.

3

19.

The USAO agrees that, provided the Court imposes a term of

4

imprisonment within or above the range corresponding to an offense

5

level of 10 and the criminal history category calculated by the

6

Court, the USAO gives up its right to appeal any portion of the

7

sentence.
WAIVER OF COLLATERAL ATTACK

8

9

20.

Defendant also gives up any right to b~ing a post-

10

conviction collateral attack on the convictions or sentence, except a

11

post-convictio~ collateral attack based on a claim of ineffective

12

assistance of counsel, a claim of newly discovered evidence, or an

13

explicitly retroactive change in the applicable Sentencing

14

Guidelines, sentencing statutes, or statutes of conviction.

15
16

RESULT OF WITHDRAWAL OF GUILTY PLEA
21.

Defendant agrees that if, after entering a guilty plea

17

pursuant to this agreement, defendant seeks to withdraw and succeeds

18

in withdrawing defendant's guilty plea on any basis other than a

19

claim and finding that entry into this plea agreement was

20

involuntary, then the USAO will be relieved of all of its obligations

21

under this agreement

22
23

EFFECTIVE DATE OF AGREEMENT
22.

This agreement is effective upon signature and execution of

24

all required certifications by defendant, defendant's counsel, and an

25

Assistant United States Attorney.

26
27
28

BREACH OF AGREEMENT
23.

Defendant agrees that if defendant, at any time after the

signature of this agreement and execution of all required
9

A 24

Case 2:17-cr-00660-DSF Document 50 Filed 03/20/18 Page 10 of 14 Page ID #:289

(

(

1

certifications by defendant, defendant's counsel, and an Assistant

2

United States Attorney, knowingly violates or fails to perform any of

3

defendant's obligations under this agreement ("a breach"), the USAO

4

may declare this agreement breached.

5

are material, a single breach of this agreement is sufficient for the

6

USAO to declare a breach, and defendant shall' not be deemed to have

7

cured a breach without the express agreement of the USAO in writing.

B

If the USAO declares this agreement breached, and ~he Court finds

9

such a breach to have occurred, then:

All of defendant's obligations

(a) if defendant has previously

10

entered a guilty plea pursuant to this agreement, defendant will not

11

be able to withdraw the guilty plea, and (b) the USAO will.be

12

relieved of all its obligations under this agreement.

13

COURT AND PROBATION OFFICE NOT PARTIES

14

24.

Defendant understands that the Court and the United State~

15

Probation Office are not parties to this agreement and need not

16

accept any of the USAO's sentencing recommendations or the parties'

17

agreements to facts or sentencing factors.

18

25.

Defendant understands that both defendant and the USAO are

19

free to:

20

to the United States Probation Office and the Court,

21

and all factual misstatements relating to the Court's Sentencing

22

Guidelines calculations and determination of sentence, and (c) argue

23

on appeal and collateral review that the Court's Sentencing

24

Guidelines calculations and the sentence it chooses to impose are not

25

error, although each party agrees to maintain its view that the

26

calculations in paragraph 13 are consistent with the facts of this

27

case.

(a) supplement the facts by supplying relevant information
(b) correct any

28

10

A 25

Case 2:17-cr-00660-DSF Document 50 Filed 03/20/18 Page 11 of 14 Page ID #:290

(

26.

1

Defendant understands that even if the Court ignores any

2

sentencing recommendation, finds facts or reaches conclusions

3

different from those agreed to, and/or imposes any sentence up to the

4

maximum established by statute, defendant cannot, for that reason,

.5

withdraw defendant's guilty plea, and defendant will remain bound to

6

fulfill all defendant's obligations under this agreement.

7

understands that no one

8

or the Court -- can make a binding prediction or promise regarding

9

the sentence defendant will receive, except that it will be within

10

Defendant

not the prosecutor, defendant's attorney,

the statutory maximum.
NO ADDITIONAL AGREEMENTS

11

27.

12

Defendant understands that, except as set forth herein,

13

there are no promises, understandings, or agreements between the USAO

14

and defendant or defendant's attorney, and that no additional

15

promise, understanding, or agreement may be entered into unless in a

16

writing signed by all parties or on the record in court.

17

//

18

//

19

//

20

//

21

//

22

//

23

//

24

//

25

//

26

//

27

/ /,

28

//

11

A 26

Case 2:17-cr-00660-DSF Document 50 Filed 03/20/18 Page 12 of 14 Page ID #:291

I
!f

(

~, ;.

I
!

PLEA AGREEMENT PART OF THE GUILTY PLEA BEARING

1
2

Ifi

28.

The parties agree that this ~greement will be considered

3

part of the record of defendant's gu:i.lty plea hearing as if the

4

entire agreem~nt had been read into the record ot the proceeding.

5

AGREED AND ACCEPTED

6

UNITED STATES ATTORNEY'S OFFICE
FOR THE CENTRAL DISTRICT OF

7

CALIFORNIA

8

NICOLA T. HANNA
United States Attorney

9

tR

10
11

StatE?l:l Atto:t:'ney

12

14

Date

.TA~SIO VALENCIA-BARRAGAN
Defendant

15
16
17

18
19

~~

LISASHl~RE

Date

Deputy Federal Public Defender
Attorney for Defendant TARCISIO
VALENCIA-BARRAGAN

20
21
22
23
24

25

26
27
28

12

A 27

Case 2:17-cr-00660-DSF Document 50 Filed 03/20/18 Page 13 of 14 Page ID #:292

(

(

CERTIFICATION OF DEFENDANT

1

This agreement has been read to me in Spanish, the language I

2

3

understand best.

I have had enough time to review and consider this

4

agreement, and I have carefully and thoroughly discussed every part

5

of it with my attorney.

6

and I voluntarily agree to those terms.

7

evidence with my attorney, and my attorney has advised me of my

8

rights, of possible pretrial motions that might be filed, of possible

9

defenses that·might be asserted either prior to or at trial, of the

I understand the terms of this agreement,
I have discussed the

10

sentencing factors set forth in 18 U.S.C. § 3553(a), of relevant

11

Sentencing Guidelines provisions, and of the consequences of entering

12

into this agreement.

13

any kind have been made to me other than those contained in this

14

agreement.

15

into this agreement.

16

attorney in this matter, and I am pleading guilty because I am guilty

17

of the charges and wish to take advantage of the promises set forth

18

in this agreement, and not for any other reason.

No prom~ses, inducements, or representations of

No one has threatened or forced me in any way to enter
I am satisfied with the representation of my

19

20

oc:tte

TARCISIO VALENCIA-BARRAGAN
Defendant

21
22

23
24
25
26
27

28

II
II
II
II
II
II
13

A 28

Case 2:17-cr-00660-DSF Document 50 Filed 03/20/18 Page 14 of 14 Page ID #:293

(

CERTIFICATION OF INTERPRETER

1

2

(

I,

CttJtJII Gva~!MiJ

am fluent in the written and spoken English

3

and Spanish languages.

4

from English into Spanish to defendant TARCISIO VALENCIA-BARRAGAN on

5

this date.

6

7

I accurately translated this entire agreement

tJ{/ft,'J4 IJ/11,{AM

INTERPRET

Date

(

J

8

9

10

CERTIFICATION OF DEFENDANT'S ATTORNEY
I am TARCISIO VALENCIA-BARRAGAN's attorney.

I have carefully

11

and thoroughly discussed every part of this agreement with my client.

12

Further, I have fully advised my client of his rights, of possible

13

pretrial motions that might be filed, of possible defenses that might

14

be asserted either prior to or at trial, of the sentencing factors

15

set forth in 18 U.S.C. § 3553(a), of relevant Sentencing Guidelines

16

provisions, and of the consequences of entering into this agreement.

17

To my knowledge: no promises, inducements, or representations of any

18

kind have been made to my client other than those contained in this

19

agreement; no one has threatened or forced my client in any way to

20

enter into this agreement; my client's decision to enter into this

21

agreement is an informed and voluntary one; and the factual basis set

22

forth in this agreement is sufficient to support my client's entry of

23

a guilty plea pursuant to this agreement.

24

25
26

27

~£~~

LISA SHINAR LABARRE
Deputy Federal Public Defender
Attorney for Defendant TARCISIO
VALENCIA-BARRAGAN

Date

28
14

A 29

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 1 of 25

IN THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA, ) C.A. No. 18-50243
) D.C. No. CR 17-660-DSF
)
Plaintiff-Appellee,
) (Central Dist. Cal.)
)
v.
) GOVERNMENT’S REQUEST
) FOR JUDICIAL NOTICE;
TARCISIO VALENCIA) DECLARATION OF JULIA L.
BARRAGAN,
)
) REESE; EXHIBITS
Defendant-Appellant.
)
Plaintiff-Appellee United States of America, by and through its
counsel of record, hereby requests judicial notice of the attached
certified copy of the conviction records in Case No. 13M02829,
Sacramento Superior Court, the offense to which defendant stipulated
as part of his plea agreement. (ER 11-12.)
The documents are the proper subject of judicial notice. This
Court “may judicially notice a fact that is not subject to reasonable
dispute because it . . . can be accurately and readily determined from
sources whose accuracy cannot reasonably be questioned.” Fed. R. Evid.
201(b)(2). In fact, the Court “must take judicial notice if a party

A 30

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 2 of 25

requests it and the court is supplied with the necessary information.”
Fed. R. Evid. 201(c)(2).
This Court has taken judicial notice of matters not otherwise
included in the record on appeal, including state court records that
“have a direct relation to matters at issue.” See United States v. Black,
482 F.3d 1035, 1041 (9th Cir. 2007) (quotation mark omitted) (taking
judicial notice on appeal of state court judgment of criminal conviction);
see also United States v. Wilson, 631 F.2d 118, 119 (9th Cir. 1980) (court
of appeals may take notice of facts from “its own records in other cases,
as well as the records of an inferior court in other cases”). Here, the
documents for which the government requests judicial notice are not
subject to reasonable dispute and directly relate to matters at issue.
The certified conviction records are not subject to reasonable
dispute. The records were certified by a deputy clerk for the
Sacramento Superior Court. The records include: (1) the underlying
charging document (JND 12-13); (2) a declaration in support of an
arrest warrant and excerpts from an accompanying exhibit, which was

2

A 31

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 3 of 25

incorporated by reference into the charging document (JND 14-18)1; (3)
the judgment reflecting defendant’s sentence (JND 11); (4) various
minute orders (JND 2, 4, 6-10); (5) a court order regarding restitution
(JND 5); and (6) a signed memorandum modifying defendant’s
probation based on his completion of a batterer’s treatment program
(JND 3).
The certified conviction records are also directly related to matters
at issue here. A primary issue on appeal is whether defendant’s
argument based on Rehaif v. United States, 139 S. Ct. 2191 (2019)—
that the government did not prove that defendant knew he had suffered
a misdemeanor domestic-violence conviction—requires reversal under
plain-error review. The certified conviction documents—which were
produced in discovery but were not part of the record below—have a
direct relation to whether defendant’s substantial rights or the fairness,
integrity, or public reputation of the judicial proceedings were affected.
Namely, they show defendant’s knowledge of his misdemeanor

Based on undersigned counsel’s review of the records, three
pages appear to be missing from the exhibit to the application for the
arrest warrant.
1

3

A 32

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 4 of 25

domestic-violence conviction based on his presence at the change-of-plea
proceeding and sentencing, and his post-sentencing participation in a
batterer’s treatment program.
This request is made pursuant to Federal Rule of Appellate
Procedure 27 and Circuit Rule 27-1. It is based on the attached
declaration of counsel, the files and records in this case, and any further
information that the Court may request.
///
///
///

4

A 33

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 5 of 25

Defendant is not in custody. No court reporter is in default with
regard to any designated transcript. Defense counsel takes no position
on this motion.
DATED: January 21, 2020

Respectfully submitted,
NICOLA T. HANNA
United States Attorney
BRANDON D. FOX
Assistant United States Attorney
Chief, Criminal Division
L. ASHLEY AULL
Assistant United States Attorney
Chief, Criminal Appeals Section
/s/ Julia L. Reese
JULIA L. REESE
Assistant United States Attorney
Criminal Appeals Section
Attorneys for Plaintiff-Appellee
UNITED STATES OF AMERICA

5

A 34

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 6 of 25

DECLARATION OF JULIA L. REESE
I, Julia L. Reese, hereby declare and state as follows:
1.

I am an Assistant United States Attorney in the Central

District of California and a member of my office’s Criminal Appeals
Section. I represent the United States in United States v. Tarcisio
Valencia-Barragan, C.A. 18-50243.
2.

Attached as Exhibit A hereto is a certified copy of conviction

records relating to defendant’s conviction in Case No. 13M02829,
Sacramento Superior Court.
3.

Jonathan D. Libby, attorney for defendant Tarcisio Valencia-

Barragan, has informed me that he takes no position on the
government’s request for judicial notice of Exhibit A.
I declare under penalty of perjury that the foregoing is true and
correct, to the best of my knowledge.
EXECUTED this 21st day of January 2020, in Los Angeles,
California.
/s/ Julia L. Reese
JULIA L. REESE
Assistant United States Attorney

A 35

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 7 of 25

EXHIBIT A

A 36

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 8 of 25

A 37

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 9 of 25

A 38

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 10 of 25

A 39

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 11 of 25

A 40

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 12 of 25

A 41

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 13 of 25

A 42

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 14 of 25

A 43

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 15 of 25

A 44

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 16 of 25

A 45

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 17 of 25

A 46

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 18 of 25

A 47

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 19 of 25

A 48

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 20 of 25

A 49

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 21 of 25

A 50

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 22 of 25

A 51

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 23 of 25

A 52

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 24 of 25

A 53

Case: 18-50243, 01/21/2020, ID: 11569289, DktEntry: 30, Page 25 of 25

A 54

